No.

WRITS OF CERTIORARI
IN THE
SUPREME COURT OF THE UNITED STATES
FOR THE SIXTH CIRCUIT

ADRIENNE BUSH

— PETITIONER

(Your Name)
VS.

KENNETH NATHAN TRUSTEE

— RESPONDENT(S)

PROOF OF SERVICE
t

ADRIENNE BUSH

_________________, do swear or declare that on this date,
, 20_2i_, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
I,

JULY 22

The names and addresses of those served are as follows:
Kenneth Nathan
32300 Northwestern Hwy.
Suite 200
Farmington Hills, Ml 48334

I declare under penalty of permry that the foregoing is true and correct.
Executed on

,20.
TRICIA GALBRAITH
NOTARY PUBUCrSTATE OF Ml
COUNTY OF OAKLAND
MY COMMISSION EXPIRES Dec 15,2024
ACTING IN COUNTY

v

(Signature)

